Report No. D-2008-126            August 29, 2008




           Internal Controls Over the
            Army Military Equipment
            Baseline Valuation Effort
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
AIM                           Abrams Integrated Management
ASA(ALT)                      Assistant Secretary of the Army (Acquisition, Logistics,
                                 and Technology)
HMEE                          High Mobility Engineer Excavator
ITAS                          Improved Target Acquisition System
OIG                           Office of Inspector General
P&EPO                         Property and Equipment Policy Office
PAC-3                         Patriot Advance Capability-3
PEO                           Program Executive Office
PMO                           Program Management Office
QMD                           Quantitative Methods Directorate
SFFAS                         Statement of Federal Financial Accounting Standards
SOCOM                         Special Operations Command
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                 and Logistics
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer
USMC                          U.S. Marine Corps
use.   """''-'..lI_..lI.U..ll.'~'''''''..lI.. """'~   "YY\ rl"Y\   tr.   nrD,"YY\   ~:::lI"Y\T   comments on a
                      Report No. 0-2008-126 (Project No. 02007-0000FL-0204.000)
                                           August 29, 2008

                Results in Brief: Internal Controls Over the
                Army Military Equipment Baseline Valuation
                Effort


What We Did                                           What We Found
We assessed the effectiveness oflhe Property          The Anny military equipment baseline values
and Equipment Policy Office and Anny internal         were misstated by at least $4.2 billion. In
controls over the valuation, rights and               addition, the Anny could not support ownership
obligations, and completeness of military             of at least 420 military equipment end items or
equipment programs contained in the Anny              the completeness ofthc military equipment
~nilitary equipment baseline. This rcpol1 is one      program baseline. As a result, the Army cannot
In a senes.                                           rely on the baseline to assert that military
                                                      equipment is ready for audit.
Statement of Federal Financial Accounting
Standard No. 23, "Eliminating the Category
National Defense Property, Plant, and                 What We Recommend
Equipment," May 2003, classified military             We recommend that the Office of the Secretary
equipment as General Property, Plant, and             of the Anny (Acquisition, Logistics, and
Equipment and required thai military equipment
                                                      Technology):
assets be capitalized and depreciated. The
Under Secretary of Defense (Acquisition,                  • issue guidance requiring Program
Technology, and Logistics) and the Under                      Management retain supporting
Secretary of Oefense (Comptroller)/Chief                      documentation and
Financial Officer established the Office of the           • request an independent organization
Secretary of Defense Property and Equipment                   perfonn a quality assurance review of
Policy Office to achieve compliance with
Statement of Federal Financial Accounting                     supporting documentation.
Standard No. 23.
                                                      Client Comments and Our
Because systems and processes were not in
place to allow for the calculation of the full cost   Response
of assets, the Property and Equipment Policy          The Assistant Secretary of the Army for
Office used a program-based valuation method          Acquisition, Logistics, and Technology
to develop the baseline.                              concurred with the recommendations and plans
                                                      to begin implementation of the guidance by the
For the valuation assertion, we reviewed a            4th Quarter FY 2008. TIle client comments
statistical sample of 1,064 end items within          were responsive to the recommendations.
39 military equipment programs. The                   Please see the recommendations table on the
acquisition cost of these 39 programs was             back of this page.
$78.1 billion, and the acquisition cost of these
1,064 end items was $46.8 billion. For the
rights and obligations assertion, we reviewed a
statistical sample of 800 end items within
24 average cost programs. For the completeness
assertion, we reviewed a judgmental sample of
68 programs that were excluded from the
baseline.
                                                               Apache AH-64A Helicopter
Table of Contents
Results in Brief                                           i

Introduction                                               1

       Objectives                                         1
       Background                                         1

Finding. Valuation of Army Military Equipment Baseline     5

Appendices

       A. Scope and Methodology                           19
              Review of Internal Controls                 19
              Prior Coverage                              20
       B. Military Equipment Accounting Policy            21
       C. Military Equipment Programs Reviewed            23
       D. Statistical Sampling Methodology and Analysis   27

Client Comments

       Department of the Army                             29
       Under Secretary of Defense for Acquisition,
             Technology, and Logistics                    33
Introduction
Objectives
Our overall objective was to determine whether internal controls over the Army’s
military equipment baseline valuation process were adequate. Specifically, we assessed
the effectiveness of the Property and Equipment Policy Office (P&EPO) and the Army
internal controls over the valuation, rights and obligations, and completeness of military
equipment. See Appendix A for a discussion of the scope and methodology, the review
of internal controls, and prior coverage.

Background
The Under Secretary of Defense for Acquisition, Technology, and Logistics
(USD[AT&L]) requested that the DoD Office of Inspector General (OIG) review the:

    •    process used to value military equipment,
    •    ability to demonstrate that DoD owns the military equipment being reported
         (rights and obligations), and
    •    completeness of the military equipment universe.

The DoD OIG is auditing the military equipment baselines of the Army, Navy, Air Force,
U.S. Marine Corps, and Special Operations Command. This report addresses the Army’s
military equipment baseline.

As of September 30, 2006, Military Equipment was $58.9 billion, approximately
70 percent of General Property, Plant, and Equipment reported in the Department of the
Army General Fund Financial Statements, and 26 percent of Total Assets. The Army
military equipment baseline contained 216 programs, with a total net book value of
$58.2 billion.1 A military equipment program is the grouping of like assets that meet the
military equipment criteria. Statement of Federal Financial Accounting Standards
(SFFAS) No. 23, “Eliminating the Category National Defense Property, Plant, and
Equipment,” May 2003, classifies military equipment as General Property, Plant, and
Equipment and requires that military equipment assets be capitalized and depreciated.
Prior to SFFAS No. 23, DoD expensed military equipment acquisition costs in the period
that they occurred. USD(AT&L) and the Under Secretary of Defense
(Comptroller)/Chief Financial Officer (USD[C]/CFO) established the Office of the
Secretary of Defense Property and Equipment Policy Office to achieve compliance with
SFFAS No. 23. The P&EPO is responsible for leading the DoD implementation of
SFFAS No. 23 and ensuring that DoD:

    •    develops and applies standard, consistent approaches and methodologies;
    •    modifies, coordinates, and communicates policies and procedures; and
    •    reports military equipment values that pass the audit community’s test.




1
  This is the net book value of the Army’s military equipment. The total net book value of military
equipment is the total acquisition cost minus the accumulated depreciation. The Army’s financial
statements also include its portion of Chemical and Biological Defense Programs.



                                                     1
Management Assertions
Management assertions are representations by management about information in the
financial statements. The primary management assertions for the Military Equipment
line item are listed in Table 1.

                              Table 1. Management Assertions
             Assertion                              Management Representation
Valuation or Allocation          All military equipment is properly valued.
Rights and Obligations           The Army owns all military equipment reported in the financial
                                   statements.
Completeness                     All military equipment owned by the Army is reported in the
                                   financial statements
Existence or Occurrence          All military equipment assets reported in the financial statements
                                   existed on the date they were reported.
Presentation and Disclosure      All military equipment assets are correctly reported in the financial
                                   Statements

Baseline Valuation
The military equipment valuation process consisted of two phases. During the first
phase, the P&EPO developed an opening inventory of military equipment, called the
baseline, for the period ending September 30, 2006. The military equipment baseline is
updated using expenditure information and information related to acquisition and
logistics to identify acquisitions and disposals. Because accounting systems and
processes were not in place to allow DoD to calculate the full cost of assets as required
by SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” the P&EPO used
program-based valuation methods to develop the baseline. The P&EPO used two
methodologies to value Army military equipment, Average Cost and Group and
Composite.

Average Cost
The Average Cost Methodology generally applies when major assets; such as combat
aircraft, tanks, and ships; are acquired under programs with uniquely identifiable costs.
The P&EPO used this approach, calculating total program costs through FY 2006 from
budgetary and expenditure data sources provided by the program management offices
(PMOs) and dividing that total by the estimated quantity of assets to arrive at unit
acquisition cost.

Group and Composite
Unlike the Average Cost Methodology, which assigns costs to individual end items, the
Group and Composite Methodology treats the total expenditures for each year as a single
asset. The Group and Composite Methodology is applied when at least some of the
assets being acquired under an appropriation have a unit cost in excess of the
capitalization threshold, when costs cannot be directly associated with end items, and
when no single item is significant enough to represent the entire program. Examples
include mobile hospitals and categories of construction vehicles. Using this approach,
the P&EPO computed annual program costs through FY 2006 from budgetary and
expenditure data sources provided by the PMOs. The unit acquisition cost in a group and
composite program is equal to the annual program costs for each fiscal year.



                                               2
Fixed-Asset Accounting
Fixed-asset accounting uses depreciation to distribute the original cost of a fixed asset,
such as equipment, over its estimated useful life. Accumulated depreciation is the sum of
the depreciation expense taken to date on an asset. An asset’s net book value—the
amount shown on the financial statements—is the asset’s original cost minus its
accumulated depreciation. The P&EPO used the mid-year convention method2 to
compute depreciation.

Army Acquisition Structure
A program executive office (PEO) directs several major Defense acquisition programs
and major and non-major system acquisition programs. A PMO manages the
development of major weapons systems and equipment and reports to a PEO. The PEOs
report directly to the Assistant Secretary of the Army for Acquisition, Logistics, and
Technology (ASA[ALT]), who is the single decision authority for all Army acquisition
matters. The P&EPO met with Army PEOs and PMOs to discuss military equipment
valuation, requirements, and methods.

Accounting Standards for Property, Plant, and Equipment
The Federal Accounting Standards Advisory Board and the USD(C)/CFO issue
accounting standards for property, plant, and equipment. Appendix B contains a
discussion of military equipment accounting policy.




2
 Under the mid-year convention, 6 months of depreciation is recorded in the first and last year of an asset’s
useful life, regardless of the month the asset was placed into, or removed from, service.



                                                     3
4
Valuation of Army Military Equipment
Baseline
Army military equipment baseline values were misstated by at least $4.2 billion. In
addition, the Army could not support ownership of at least 420 military equipment end
items3 or the completeness of the military equipment program baseline. This occurred
because the Program Executive Office (PEO) validations and attestations and the
Program Management Office (PMO) maintenance of supporting documentation were
insufficient to:

       •   prevent valuation errors,
       •   support the Army’s rights to assets,
       •   exclude assets belonging to other DoD Components, and
       •   ensure that all programs that should be valued were included.

As a result, the Army cannot rely on the baseline to assert that military equipment is
ready for audit.

Army Military Equipment
The Army military equipment baseline contained 98,699 end items within 216 programs,
with a total acquisition cost of $113.9 billion. See Appendix D for a discussion of the
methodology used to select the statistical sample of programs and end items. For the
valuation assertion, we reviewed a statistical sample of 1,064 end items within
39 average cost and group and composite programs. The acquisition cost of the
39 programs was $78.1 billion, and the acquisition cost of the 1,064 end items was
$46.8 billion. For the rights and obligations assertion, we reviewed a statistical sample of
800 end items within 24 average cost programs. For the completeness assertion, we
reviewed a judgmental sample of 68 programs that were excluded from the baseline.4
See Appendix C for a summary of the types of errors found in each program and the total
misstatement for the program acquisition cost.

Valuation Assertion
For the valuation assertion, management represented that the military equipment assets
were correctly valued in the financial statements. The net book value of each asset was
computed by subtracting the accumulated depreciation from the unit acquisition cost. To
determine the accuracy of the baseline valuation, we reviewed the unit acquisition costs
and depreciation computations for 1,064 end items in 39 programs. The P&EPO
incorrectly valued at least 20,310 end items in the Army baseline.

Unit Acquisition Cost
The P&EPO misstated the unit acquisition costs of end items in the Army baseline by at
least $4.2 billion. Of the 1,064 end items reviewed, the P&EPO misstated the unit
acquisition cost for 461 end items and correctly stated the unit acquisition cost for


3
 Military equipment end items, or assets, are the final combination of component parts and materials that
are ready for their intended use (for example, tanks and helicopters).
4
    Judgmental sample results are not projectable across the universe.


                                                       5
574 end items. Because we could not locate sufficient documentation, we were unable to
determine whether the P&EPO correctly stated the unit acquisition costs for the
remaining 29 end items. Table 2 shows the results of this review.

         Table 2. Accuracy of Unit Acquisition Costs for 1,064 Sampled End items

                                Number of       Total Baseline
Result                          End items      Acquisition Cost     Total Misstatement
No Misstatement Found              574           $38.0 billion           $0
Understated                        324             3.5 billion            1.3 billion
Overstated                         137             1.5 billion            0.9 billion
Unable to Determine*                29             3.9 billion            0
* Due to insufficient supporting documentation


The P&EPO misstated the unit acquisition cost for 461 end items because it used
incorrect total program costs, an incorrect number of total program end items, or both to
compute the unit acquisition cost. The P&EPO and the Army PMOs did not provide
adequate documentation to support the valuation of two (from Table 4) programs. The
unit acquisition cost is computed differently for average cost and group and composite
programs. For average cost programs, the unit acquisition cost is equal to the total
program cost divided by the number of end items. As a result, all end items in an average
cost program have the same unit acquisition cost. For group and composite programs, the
total expenditures for each fiscal year are treated as a single asset. The unit acquisition
cost is equal to the total expenditures for the year. Because the total expenditures can
vary from year to year, end items in group and composite programs generally have
different unit acquisition costs. Table 3 (on page 7) summarizes the misstatements we
found for each military equipment program.

Average Cost Programs
Of the 461 sample items with incorrect unit acquisition costs, 440 were part of average
cost programs. Because the unit acquisition cost is computed by dividing the total
program cost by the number of end items, errors in either the total program cost or
number of end items resulted in a misstatement of the unit acquisition cost. The
misstatements in the unit acquisition cost for the 440 average cost sample items resulted
from errors in the total program cost for 180 sample items, in the number of end items for
160 sample items, and in both for 100 sample items.

Total Program Cost
The P&EPO misstated the total program cost for 10 average cost programs. Because the
unit acquisition cost is computed by dividing the total acquisition cost by the number of
program end items, these misstatements resulted in incorrect unit acquisition costs for
280 sample items.

The P&EPO overstated the total program cost for the Improved Target Acquisition
System (ITAS) Program because it incorrectly included costs that should have been
excluded. The P&EPO incorrectly used $962.9 million in costs from fiscal years prior to
FY 2005 to compute the total cost for the ITAS Program. The program budget reports
indicate that only $424 million of these costs were for the ITAS Program. In addition,
the P&EPO incorrectly included $23.9 million in initial spares in the total ITAS Program
cost. Because initial spares do not meet the military equipment criteria, their cost should



                                                  6
not be included in the total program cost. These errors resulted in a $799,000
overstatement of the unit acquisition cost for each ITAS end item.


             Table 3. Military Equipment Programs with Unit Acquisition Cost Errors

                                           Program            Number of
Program                Sample Items     Acquisition Cost      End items         Misstatement
Abrams M1A1                20                 20                                $4.7million
Abrams Integrated                                                              understatement
Management
Armored Security           20                 20                                $0.7 million
Vehicle                                                                        understatement
Blackhawk, model           20                 20                                $52.7 million
UH-60L                                                                         understatement
(2001-2006)
Improved Target            40                 40                                $32.0 million
Acquisition System                                                              overstatement
Longbow Apache             20                 20                                $13.5 million
AH-64D                                                                         understatement
                           20                 20                                $2.2 million
M88A2 Hercules                                                                 understatement
                           20                 20                                $0.8 million
Paladin                                                                        understatement
Palletized Load            20                 20                                $0.6 million
System                                                                         understatement
                           140                                   140            $5.1 million
Chinook CH-47D                                                                 understatement
                           20                                    20             $4 thousand
M939 5-Ton Truck                                                               understatement
Family of Stryker          80                 80                 80             $10.5 million
Vehicles                                                                        overstatement
Patriot Advance            20                 20                 20            $753.0 million
Capability-3                                                                   understatement
Family of Medium           45                 12                                 $4.2 million
Tactical Vehicles*                                                              overstatement
Fire Support               18                  9                               $372.8 million
Vehicle                                                                        overstatement
Modification*

* Group and composite programs




                                                7
The P&EPO understated the total program cost for three programs because it did not
include all costs to bring the end items to a form and location suitable for their intended
use. For example, the P&EPO did not include the net book value of all modified Patriot
firing units in the total program cost of the Patriot Advance Capability-3 (PAC-3)
Program. The P&EPO Business Rule, “Modifications, Modernizations, Upgrades, and
Improvements,” May 2005, states that the net book value of an existing asset should be
added to the full cost of modifications that extend its useful life. Because the PAC-3
Program modified existing Patriot firing units to improve their capabilities and extend
their useful lives, the net book value of the existing Patriot firing units modified under the
PAC-3 Program should be included in the total program cost of the PAC-3 Program.
This error resulted in a $17.3 million understatement of the unit acquisition cost for each
PAC-3 end item.

The P&EPO understated the total program cost for six programs because it did not use
the most current program cost data. For example, the P&EPO used the program budget
report from FY 2005 to calculate the unit acquisition cost for the Armored Security
Vehicle Program. The FY 2005 program budget report showed a unit acquisition cost of
$770,000. The unit acquisition cost increased to $804,000 in the FY 2006 budget report.
This error resulted in a $34,000 understatement of the unit acquisition cost for each
Armored Security Vehicle end item.

Number of Program End Items
The P&EPO misstated the unit acquisition cost for 4 average cost programs because it
used the incorrect number of program end items to compute unit acquisition cost for
260 sample items. For example, the P&EPO incorrectly used 54 end items to calculate
the unit acquisition cost for the PAC-3 Program. The December 2003 Selected
Acquisition Report for the PAC-3 Program indicated that in September 1998, the PMO
estimated that the Army would procure 54 PAC-3 end items under the program.
However, the same document also indicated that in December 2000, the PMO estimated
that the Army would procure 40 PAC-3 end items under the program. The P&EPO
incorrectly used the FY 1998 estimate of 54 end items rather than the more current
FY 2001 estimate of 40 end items. This error resulted in a $14.3 million understatement
of the unit acquisition cost for each PAC-3 end item.

Group and Composite Programs
Of the 461 sample items with incorrect unit acquisition costs, 21 were part of group and
composite programs. These misstatements resulted from errors in computing the annual
expenditures for some of the fiscal years in these programs. For example, the P&EPO
incorrectly included $372.8 million in costs associated with another program in the total
program cost of the Fire Support Vehicle Modification Program. As a result, the P&EPO
overstated the unit acquisition cost for 9 years by $41.4 million each.




                                              8
Program Costs Supporting Documentation
For 2 of 39 programs we reviewed, neither the P&EPO nor the Army PMOs provided
support for the total program costs. Because of the lack of documentation, we were
unable to determine whether the P&EPO correctly calculated the total program costs for
these programs. Table 4 shows the two programs and the amount of unsupported costs.

                               Table 4. Unsupported Program Costs
Program                                                         Unsupported Program Costs
Bradley A2                                                              $246.5 million
M9 Armored Combat Earth Mover                                           $ 35.1 million


Depreciation
The P&EPO miscalculated depreciation for 59 end items in 9 of the 39 programs we
reviewed. Depreciation is computed by dividing the unit acquisition cost by the
estimated useful life. Depreciation begins from the date an end item is placed in service.
Because the net book value is the amount shown on the financial statements, errors in
calculating depreciation would cause the financial statements to be misstated. Table 5
shows the types of errors that caused the depreciation to be misstated in the nine
programs.

                 Table 5. Military Equipment Programs with Depreciation Errors



                                                                              Placed-in-Service
Program                      Sample Items          Useful Life Errors            Date Errors
Abrams M1A1 Abrams
Integrated Management              20                                                     7
Improved Target
Acquisition System                 40                                                     1
M88A2 Hercules                     20                                                    11
Paladin                            20                                                     8
Chinook CH-47D                   140                                                      3
M939 5-Ton Truck                   20                      2
Javelin                            20                     20
Abrams M1A2                        40                                                     5
Abrams M1A2 SEP                    60                                                     2

   Total Number of               380                      22                             37
      End items




                                               9
Useful Life
The P&EPO used the incorrect useful life to compute the depreciation for 22 sample
items in 2 programs (M939 5-Ton Truck and Javelin). The PMOs determined the useful
life for each program. In FY 2004, the Javelin PMO notified the P&EPO that the useful
life of the Javelin end items was 20 years. In FY 2006, the P&EPO changed the useful
life for this program to 10 years, based on a request from the PMO. During our visit to
Redstone Arsenal in August 2007, the Javelin PMO stated that the correct useful life was
20 years. Because the PMO incorrectly changed the useful life, the P&EPO overstated
depreciation for the 20 Javelin end items we reviewed by $318,000 and understated the
net book values by the same amount.

Placed-in-Service Date
The P&EPO used incorrect placed-in-service dates to compute the depreciation in
15 programs. An asset is considered placed in service when the Army receives it. The
P&EPO used the mid-year convention to calculate the depreciation for Army military
equipment end items. Under the mid-year convention, only errors that record the placed-
in-service date in the wrong fiscal year cause depreciation to be misstated. The
15 programs contained 175 sample items with incorrect placed-in-service dates, 37 of
which recorded the date in the wrong fiscal year. For example, the P&EPO used the
wrong placed-in-service date for all 20 end items we reviewed in the Abrams M1A1
Abrams Integrated Management (AIM) program. Seven of those had the placed-in-
service dates in the wrong fiscal year. Because the placed-in-service dates for these
seven end items were in the wrong fiscal year, the P&EPO overstated depreciation by
$232,096, thus understating net book value by the same amount.

Other Issues
In 2 of 39 programs, the P&EPO did not allocate expenditures correctly among the end
items. When the Army receives the last end item in a program, there may be remaining
expenditures in the Work-In-Process account, which records all costs related to the
acquisition of constructed General Property, Plant, and Equipment. The P&EPO created
an additional end item with a unit acquisition cost equal to the remaining expenditures for
these two programs. For the unit acquisition cost to be correct, the P&EPO should have
allocated the remaining expenditures among all of the end items in the programs.
Because the P&EPO did not allocate the remaining expenditures, they understated the
unit acquisition costs for the two programs. Understating the unit acquisition cost also
resulted in a misstatement of the depreciation for each end item. For example, the Army
received the final Paladin Program end item in FY 2005. The Paladin Work-In-Process
account included expenditures of $163.6 million. Rather than allocate these remaining
expenditures among the 975 Paladin end items, the P&EPO created an additional end
item in the Paladin Program valued at $163.6 million. Because the P&EPO did not
allocate the expenditures, it understated the unit acquisition cost for each Paladin
Program end item by $168,000.

The P&EPO also incorrectly created an additional end item for the Apache AH-64A
Program. The end item represented $293.5 million in initial spares, which did not meet
the military equipment criteria. Because the P&EPO included the cost of the initial
spares in the total program cost, it overstated the Army baseline value for this program by
$286.2 million, which is the net book value of the additional end item. Because the
P&EPO did not allocate this cost among the 821 end items, the unit acquisition cost for
these end items was incorrect.



                                            10
In addition, the P&EPO did not include the FY 2006 program costs of $542.5 million as
an end item for the Family of Medium Tactical Vehicles Program, which is a group and
composite program. Because there was no end item for FY 2006, the missing
expenditures were not part of our statistical sample.

Rights and Obligations Assertion
The Army could not support ownership of at least 420 military equipment end items. The
Army baseline improperly contained 23 of 800 sampled average cost end items with an
acquisition cost of $462 million that were owned by other DoD Components. The Army
also lacked documentation to support the ownership of 60 of 800 sampled average cost
end items. In addition, we did not confirm the Army’s rights to 264 sampled group and
composite end items because the Group and Composite Methodology did not allow for
the testing of the rights and obligations assertion.

Non-Army End Items
The Army baseline contained 23 of 800 sampled average cost end items, with an
acquisition cost of $462 million, which were owned by other DoD Components. Of the
23 non-Army end items, 19 were Chinook helicopters owned by the Special Operations
Command (SOCOM), 2 were Blackhawk helicopters owned by SOCOM, and 2 were
Abrams tanks owned by the U.S. Marine Corps (USMC).

The 19 Chinook helicopters were part of a program managed by the Army Aviation PEO.
Under this program, older Chinook helicopters were modified for two distinct uses. One
model was modified for Army use, and the other model was modified for SOCOM use.
The P&EPO included both models in the Army baseline. However, the P&EPO also
included the SOCOM model helicopters in the SOCOM baseline. Because only SOCOM
uses the 19 Chinook helicopters, these assets were appropriately included in its baseline.
As a result, the P&EPO incorrectly included these 19 end items, valued at $442.7 million,
in the Army baseline.

The P&EPO also included two Blackhawk helicopters in the both the Army and SOCOM
baselines. Documentation provided by the PMO and the Defense Contract Management
Agency indicated that these two Blackhawk helicopters were delivered to SOCOM. As a
result, the P&EPO incorrectly included these two end items, valued at $14.6 million, in
the Army baseline.

The two Abrams tanks were part of a program that the P&EPO included in both the Army
and USMC baselines. The Army originated the Abrams tank program, but Abrams tanks
are used by both the Army and the USMC. The Army included all the Abrams tanks in
their baseline and intended to remove the tanks that were being used by the USMC.
Because these tanks were not removed by September 30, 2006, the Army baseline
included USMC tanks. As a result, the P&EPO incorrectly included these two end items,
valued at $4.7 million, in the Army baseline.




                                           11
Army Ownership Supporting Documentation
For 8 programs, the Army PMOs did not provide adequate documentation to support the
Army’s ownership of 60 of the 800 sampled average cost end items we reviewed. The
eight programs and the number of unsupported end items for each are provided in
Table 6. The Army PMOs for two of the eight programs stated that they could not locate
the DD 250s (Material Inspection and Receiving Reports)5 for the requested sample end
items. For the remaining six programs, the Army PMOs did not provide an explanation
for why the DD 250s were not available. For end items received after FY 1999, we
considered the rights and obligations assertion to be supported when the Army PMO
provided receiving reports. Because record retention rules require documentation to be
retained for at least 6 years and 3 months, the receiving reports were not always available
for end items received prior to FY 2000. In these cases, we also accepted alternative
documentation to support ownership, such as PMO asset lists and delivery schedules.

                                   Table 6. Unsupported End items
Program                                                        Unsupported Sampled End items
Armored Security Vehicle                                                     20
Avenger                                                                        1
Blackhawk Helicopters (1987-2000)                                              1
Chinook CH-47D                                                                 1
Javelin                                                                      20
Paladin                                                                        1
Palletized Load System                                                         2
Patriot Advanced Capability-3                                                14

                         Total                                               60


The Army baseline did not identify the individual assets included in each group and
composite program. The Group and Composite Methodology reported expenditures by
fiscal year as a single end item, rather than reporting expenditures by individual assets.
Therefore, we were unable to develop a statistical sample of group and composite assets
and did not test the rights and obligations assertion for these 15 programs.

Completeness Assertion
The Army baseline was not complete. The P&EPO drafted an initial list of programs
using the military equipment reports provided in response to a congressional requirement,
budget line item reports, selected acquisition reports, and the Government Accountability
Office Defense Acquisition Assessment of Major Weapon Program Reports. The
P&EPO also used Component-specific reports to gather military equipment program
data. These included the Army weapon system books, Chief Financial Officer equipment
lists, Army system extracts, and PMO briefings and overview documents. After



5
    DoD uses the DD 250 to establish receipt of an end item by the DoD Component.


                                                    12
developing the initial list of programs, the P&EPO reviewed it with Army financial and
program managers to identify any required adjustments. The P&EPO required the Army
managers to provide supporting documentation for adjustments to the initial list.

The initial list developed by the P&EPO included 981 programs. The P&EPO reviewed
each program to determine whether it met the criteria for being classified as military
equipment. Military equipment consists of tangible assets that meet the following
criteria:

   •   have an estimated useful life of 2 years or more,
   •   are not intended for sale in the ordinary course of operations,
   •   are acquired or constructed with the intention of being used or being available for
       use by the entity, and
   •   have an initial acquisition cost or book value that equals or exceeds the DoD
       capitalization threshold of $100,000.

If the programs did not meet all of these criteria at the time of the baseline, they were
excluded from the valuation. The P&EPO will annually review programs for which
procurement had not begun at the time of the baseline to determine whether their status
has changed. Based on this review, the P&EPO excluded 765 of the initial
981 programs. If any of the excluded programs met the criteria, the Army baseline would
be incomplete.

We reviewed the supporting documentation for a judgmental sample of 68 excluded
programs to determine whether they met the military equipment criteria. We determined
that 2 of these 68 programs were improperly excluded from the Army baseline. In
addition, the documentation provided by the Army program managers was insufficient to
support the exclusion of five programs.

Excluded Programs
The High Mobility Engineer Excavator (HMEE) Type III and the Utility Helicopter 60M
Programs were incorrectly excluded from the Army baseline. The HMEE Type III is a
backhoe loader that is capable of completing construction and loading tasks. The P&EPO
incorrectly determined that end item cost for this program was $92,000, which is below
the military equipment capitalization threshold of $100,000. The P&EPO excluded the
FY 2005 programs costs from their calculation. The correct end item cost for this
program was $108,000. Because the end item cost exceeded the capitalization threshold,
the P&EPO should have included this $12.8 million program in the Army baseline.

The Utility Helicopter 60M is an improved version of the Blackhawk UH-60 utility
helicopter. When the P&EPO developed the initial list, this program was in the research,
development, testing, and evaluation phase, and the PMO did not expect any end items to
be delivered prior to the baseline date. The Army received two UH-60M helicopters
during FY 2006. Because the Army received these two UH-60M helicopters prior to the
baseline date, the P&EPO should have included this program in the Army baseline. The
P&EPO stated that it is the PMO’s responsibility to inform them of program status
changes and provide documentation to enable them to determine the program’s unit
acquisition cost. The P&EPO indicated that the PMO had not made any requests to
change the status of the UH-60M Program.




                                           13
Exclusion Support
The PMOs for five programs did not provide sufficient support for the exclusion of the
programs from the Army baseline. The PMO for the EO-5; a reconnaissance aircraft that
integrates imagery sensors, communication intercept, and direction finding to support
operations; did not support that the funding for this program was being included in
another program. The PMO for the Hellfire Launchers; which are used to fire Hellfire
missiles from Army aircraft, Navy aircraft, and Marine Corps aircraft; did not provide
sufficient support that their end item cost was less than the military equipment
capitalization threshold. The PMO for the Modular Base Petroleum Lab, a highly mobile
petroleum lab used to test the quality of military petroleum products, did not provide
evidence that the program was cancelled. The PMO for the AN/TSQ-73, a command
control console used primarily for the Hawk missile system, did not have adequate
support for the statement that the program was deactivated. The PMO for the PM
Robotics System, Useful Life; which consists of unmanned robotic systems; did not
provide support that the program’s useful life was less than 2 years. Without sufficient
support, we cannot verify that the programs were properly excluded from the baseline.

Internal Controls
The P&EPO stated that they relied on validation and attestation by the DoD Components
as the main control over the valuation and completeness assertions. ASA(ALT)
requested that the program managers review the Army baseline and determine whether
the P&EPO correctly included the information provided by the program managers during
the development of the Army baseline. The control of seeking validation from the
Components was not sufficient to prevent the errors we identified. Some program
managers refused to confirm the Army baseline values because they did not understand
how the P&EPO used the information they provided to compute the baseline values. The
PEOs consolidated the results of the program manager reviews. The PEOs signed
attestation memorandums that indicated whether the P&EPO accurately included the
program manager input in the Army baseline information and whether any changes were
necessary. Not all of the PEOs signed an attestation memorandum. For example, PEO
Aviation did not sign an attestation memorandum. Because PEO Aviation did not sign an
attestation memorandum, the P&EPO interpreted this to mean that no changes were
needed for any PEO Aviation programs. Based on the identified errors, this
interpretation was incorrect. In addition, not all program managers provided input into
the PEO attestations. For instance, the PEO Missiles and Space attestation did not
include information from the Patriot and PAC-3 program managers. The P&EPO
understated the acquisition cost of 20 PAC-3 sample items by $753 million.

For the rights and obligations assertion, the P&EPO relied on the PMOs to maintain
documentation supporting Army ownership of the military equipment end items.
Because program managers were unable to provide documentation to support the Army’s
ownership of 60 sample end items, this control was ineffective. In addition, this control
was not sufficient to ensure that only Army assets were included in the baseline.

Management Actions
ASA(ALT) personnel stated that the Army began storing military equipment receiving
reports in Wide Area WorkFlow in FY 2007. Wide Area WorkFlow is a DoD-wide
system designed to eliminate paper from the receipt and acceptance process for DoD
contracts. The system enables authorized contractors and DoD personnel to create
invoices and receiving reports and access contract documents. Wide Area WorkFlow
maintains a historical file, which includes electronic copies of receiving reports.

                                           14
ASA(ALT) personnel indicated that the Army goal is to reach 75 percent implementation
by the end of 2008 and to complete fielding as soon as practicable after that. The use of
Wide Area WorkFlow should increase the likelihood that documentation is available to
support ownership and placed-in-service dates.

Conclusion
The internal controls over the Army baseline valuation process were insufficient to
prevent valuation errors, support the Army’s rights to assets, exclude assets belonging to
other DoD Components, and ensure that all programs that should have been valued were
included. As a result, the Army baseline is unreliable and cannot be used for asserting
that the Army’s military equipment is ready for audit.

The DoD Financial Improvement and Audit Readiness Plan provides a strategy for
achieving unqualified audit opinions on its financial statements. Under this strategy,
management makes and validates incremental improvements to segments and asserts to
the segments’ audit readiness. Segments are formed either by bringing together closely
related areas of financial management or by breaking apart areas into more manageable
portions. The DoD Financial Improvement and Audit Readiness Plan identifies military
equipment as a segment. Achieving audit readiness in the military equipment segment
will improve asset management, operational and program cost transparency, vendor pay
management, and data for financial reporting, budgeting, and decision making. Improved
business capabilities are essential to reporting the full cost of military equipment assets,
capturing the cost of major acquisition programs, tracking the useful life of military
equipment, and using such information in the planning, programming, and budgeting
process.

In the September 2007 DoD Financial Improvement and Audit Readiness Plan,
USD(AT&L) stated that the military equipment baseline valuations were correct, all
military equipment that should be capitalized has been valued, and DoD owns and has the
rights to all capitalized military equipment. For military equipment to be auditable, there
must be sufficient documentation to support the program balances, and this
documentation must be readily available for auditors to review. Based on the control
deficiencies identified in this report, the Army baseline is not supported. The Army
cannot assert that the military equipment segment is audit ready until they correct the
identified control deficiencies and the baseline values for all Army programs. The Army
should have an independent organization perform a review to confirm that documentation
is available to support the reliability of the Army baseline before asserting that the
Military Equipment line item is audit ready.


Client Comments on the Finding and Our Response
Although not required to comment, the Director, Acquisition Resources and Analysis,
Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
provided the following comments on the finding. For the full text of Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics comments, see Client
Comments.




                                            15
Under Secretary of Defense for Acquisition, Technology, and Logistics Comments.
The Director stated that although the draft report identified at least $4.2 billion in
misstatements to the unit acquisition costs, the net effect of these misstatements on the
Army Balance Sheet is only about $120 million.

The Director stated that the P&EPO relied on expenditure and budget data in the total
program cost of the Improved Target Acquisition System, which included the cost of
initial spares. The Director indicated that the cost of the initial spares could not be
separately identified in the expenditure data.

The Director stated the P&EPO is currently assessing military equipment baseline
policies to determine whether adjustments are required. The Director also commented on
some of the programs identified in the report and stated that they are in the process of
correcting the errors.

Audit Response. The objective of the audit was to determine the adequacy of the
internal controls over the Army’s military equipment baseline valuation process. We
performed our review to determine whether the internal controls were adequate to prevent
or detect misstatements. Our audit report identified several types of internal control
weaknesses and provided examples of these weaknesses and their impact on the end item
valuations. We did not determine the net effect of these weaknesses on the Army
financial statements. The Director’s comments indicate that the valuation errors resulting
from these weaknesses offset each other, resulting in minimal impact on the Army
Balance Sheet. Expressing the results of the valuation errors as a net figure may cause a
reader to incorrectly conclude that the controls are effectively preventing and detecting
misstatements.

The weaknesses in computing the end item values will not only impact the current period
Balance Sheet, but will also impact the Statements of Net Cost and Changes in Net
Position, and future period Balance Sheets. For example, the P&PEO incorrectly
included the cost of initial spares in the end item values for some programs. Because
initial spares are assets reported on the Operating Materials and Supplies line of the
Balance Sheet, the impact of this error on the Balance Sheet would be $0 for the first year
the asset was placed in service. However, because Operating Materials and Supplies are
not depreciated, this error would cause accumulated depreciation and depreciation
expense to be overstated in future years, which would result in errors on the Balance
Sheet and Statements of Net Cost and Changes in Net Position. In addition, if the Army
disposes of any of these military equipment end items, the gain or loss associated with the
disposal would be misstated, which would also result in errors on the Balance Sheet and
Statements of Net Cost and Changes in Net Position.

The primary goal of the military equipment baseline valuation should be to accurately
compute the value of military equipment end items in compliance with Accounting
Principles Generally Accepted in the United States of America (GAAP). Including the
cost of initial spares in the valuation of military equipment end items does not comply
with GAAP. It will also prevent the correct accounting for the use of spares in future
periods. As spares are used, they should be removed from Operating Materials and
Supplies, and either expensed or added to the book value of the military equipment end
item under repair. By not recording all initial spares as Operating Materials and Supplies,
the Army will have to track which spares are already included in the book value of
military equipment and ensure that standard accounting procedures are not followed
when those spares are used. We believe that following GAAP for all transactions will
reduce the risk of misstatement in future periods.

                                            16
Recommendations, Client Comments, and Our
Response
We recommend that the Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology:

       1. Issue guidance requiring that program management offices retain
documentation supporting the Army’s ownership of and placed-in-service dates for
military equipment assets when receiving reports are not available in Wide Area
WorkFlow.

Client Comments. The Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology concurred and has drafted guidance, which it will issue during
the 4th Quarter FY 2008.

Audit Response. The Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology comments are responsive and meet the intent of the
recommendation.

       2. Request that an independent organization perform a quality assurance
review to confirm that documentation supporting the Army military equipment
baseline is readily available for auditor review.

Client Comments. The Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology concurred and will coordinate with the Office of the Assistant
Secretary of the Army for Financial Management and Comptroller and the Army Audit
Agency to identify timelines to perform a quality assurance review.

Audit Response. The Office of the Assistant Secretary of the Army for Acquisition,
Logistics, and Technology comments are responsive and meet the intent of the
recommendation.




                                           17
18
Appendix A. Scope and Methodology
We conducted this financial-related audit from June 2007 through June 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The P&EPO requested that DoD Office of the Inspector General perform procedures to
review the Military Equipment Baseline Valuation as of September 30, 2006. Officials
from both offices discussed and agreed on objectives for the engagement. The agreed-
upon objectives included evaluating the reliability of the internal controls over three of
the financial statement assertions: valuation, rights and obligations, and completeness of
the Military Equipment Program universe. Specifically, we reviewed the reasonableness
and reliability of the estimated historical acquisition costs that were developed using
numerous sources, including budget documents, financial reports, and equipment
inventory reports. Our scope was limited to completeness at the program level and not
the end item level by the P&EPO. As such, we were only concerned that every program
that should have been classified as military equipment was included in the baseline and
not whether every end item within a program was included.

The Quantitative Methods Directorate (QMD), Office of the Deputy Inspector General
for Policy and Oversight provided a statistical sample of programs and program end
items based on the universe of Army military equipment programs and end items we
provided them. QMD provided a statistical sample of 39 programs and 1,064 end items
to test. See Appendix D for a discussion of the methodology used to select the sampled
programs and end items.

For completeness testing, we chose a judgmental sample of 68 programs that were
excluded from the Army baseline to verify that they were correctly excluded. We used a
judgmental sample of excluded programs because these programs were not a part of the
Army baseline to determine the statistical sample. We chose our sample from the list of
excluded programs located at Warren, MI, and Huntsville, AL. These two locations
contained 438 of 765 (57.3 percent) of the population of excluded programs.

We met with the P&EPO, the Office of the Assistant Secretary of the Army (Acquisition,
Logistics, and Technology), and the Office of the Assistant Secretary of the Army
(Financial Management and Comptroller). We also met with representatives of the PEO
Ground Combat Systems; Combat Support and Combat Support Services; and Integrated
Logistics Support Center in Warren, MI, and PEO Missiles and Space and Aviation in
Huntsville, AL. In addition, we contacted the PEO Simulation, Training, and
Instrumentation and PEO Ammunition.

Review of Internal Controls
We determined that material control weaknesses, as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006, existed in the
Army military equipment baseline valuation process. DoD Instruction 5010.40 states that
internal controls are the organization, policies, and procedures that help program and
financial managers achieve results and safeguard the integrity of their programs. The
Army PMOs were not always able to provide documentation to support the baseline

                                            19
valuation effort. Implementing the recommendations in this report will correct the
Army’s internal control weakness. Although we identified material weaknesses in the
P&EPO process for valuing military equipment, we are making no recommendations to
correct them in this report. This report is one in a series and the final report will
summarize all findings in the series and recommend corrective actions for the P&EPO
internal control weaknesses. A copy of the final report will be provided to the Army
senior officials in charge of management controls.

Use of Computer-Processed Data
We relied on computer processed data provided by the P&EPO and its support contractor,
a public accounting firm. This computer-processed data was extracted from numerous
DoD financial, acquisition, and logistics systems. These systems included the Capital
Asset Management System - Military Equipment, Business Enterprise Information
Services, and Standard Operation and Maintenance Army Research and Development
System. Specifically, we used the computer-processed data to review program valuation
calculations and examine supporting documentation adequacy. The objective of this
audit was to examine the controls over the valuation process, not to determine the
reliability of the financial data used in the process. We did not perform any detailed
reliability testing of the Business Enterprise Information Services expenditure data. We
performed limited testing and determined that the transfer of expenditure data between
Capital Asset Management System - Military Equipment and Business Enterprise
Information Services was completed correctly.

Use of Technical Assistance
QMD provided technical assistance throughout the sample selection and the projection
process. QMD provided a sample of programs and program end items to test for the
Army in support of the internal control tests we performed. QMD also provided a
projection of quantity discrepancies and associated values based on the results of the
completed sample. See Appendix D for a detailed description of the assistance provided
by QMD.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) has
issued two reports discussing the military equipment baseline. Unrestricted DoD IG
reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2005-114, “Report on Development of DoD Baseline for Military
Equipment,” September 30, 2005

DoD IG Report No. D-2005-112, “Report on the Review of the Development of the DoD
Baseline for Military Equipment,” September 30, 2005




                                          20
Appendix B. Military Equipment Accounting
Policy
Statements of Federal Financial Accounting Standards
SFFAS No. 6, “Accounting for Property, Plant, and Equipment,” June 1996, contains
accounting standards for Federally owned property, plant, and equipment. SFFAS No. 6
defines property, plant, and equipment as tangible assets that:

   •   have estimated useful lives of 2 years or more,
   •   are not intended for sale in the ordinary course of operations, and
   •   have been acquired or constructed with the intention of being used or being
       available for use by the entity.

SFFAS No. 6 states that the cost of general property, plant, and equipment must include
all costs incurred to bring the asset to a form and location suitable for its intended use.
SFFAS No. 6 also allows entities to establish their own capitalization thresholds. The
DoD established a capitalization threshold of $100,000 for military equipment, except for
wheeled vehicles which have a capitalization threshold of $50,000.

SFFAS No. 23, “Eliminating the Category National Defense Property, Plant, and
Equipment,” May 2003 is effective for periods after September 30, 2002. SFFAS No. 23
established generally accepted accounting principles for valuing and reporting military
equipment in Federal financial statements. The standard included guidance for
capitalizing the value of military equipment, including the requirement that the initial
capitalization amount should be based on historical cost in accordance with the asset
recognition provisions of SFFAS No. 6, as amended, and should be the initial historical
cost for the items, including any major improvements or modifications. The standard
provided for the use of estimated historical cost for valuing military equipment if
obtaining actual historical cost information is not practical. DoD Components may use
information such as budget, appropriation, or engineering documents and other reports
reflecting amounts expended as the basis for estimating historical cost.

DoD Financial Management Regulation
DoD Financial Management Regulation, DoD 7000.14-R, volume 4, chapter 6,
“Property, Plant, and Equipment,” July 2006, requires that when acquiring a General
Property, Plant, and Equipment asset, the purchase cost and other costs necessary to bring
the asset to an operable condition are capitalized. The regulation also states that
depreciation expenses must be calculated and accumulated using the straight-line method,
based on the recorded cost less salvage value, and divided equally among accounting
periods during the asset’s useful life. The event that triggers the calculation of
depreciation is the date of receipt shown on the asset receiving document or the date
installed and placed in service, regardless of whether it is actually used. For purposes of
computing depreciation, military equipment assets do not have salvage values.




                                            21
22
Appendix C. Military Equipment Programs
Reviewed
The following table summarizes the types of errors found in each program and the total
misstatement for the program acquisition cost. Overstatements are indicated with
positive numbers and understatements are indicated with parentheses.

                          Military Equipment Programs Reviewed
                                                                        Army
                                Unit                       Includes   Ownership
                   Sample    Acquisition                  non-Army       not       Misstatement
Program             Items       Cost       Depreciation     Assets    supported   ($ in millions)
Abrams M1A1          20          X               X                                    $(4.7)
AIM
Abrams M1A1          60                                      X                          4.7
FOV
Abrams M1A2          40                          X                                      0
Abrams M1A2 SEP      60                          X                                      0
Abrams               13                                                           None Detected
Modifications
Apache AH-64A        20                                                           None Detected
Armored Security     20          X                                       X              (0.7)
Vehicle
Avenger              40                                                  X        None Detected
BFVS Series          21                                                           None Detected
Modifications
Blackhawk            20                                                           None Detected
EH-60A/L
Blackhawk            20                                                           None Detected
UH-60A
Blackhawk            20                                      X           X             14.6
UH-60L
(1987 – 2000)
Blackhawk            20          X                                                    (52.7)
UH-60L
(2001-2006)
Bradley A2           9                                                            None Detected
Bradley Base         64                                                           None Detected
Sustainment
Chinook CH-47D      140          X               X                       X              (5.1)



                                            23
                     Military Equipment Programs Reviewed (cont’d)
                                                                         Army
                                 Unit                       Includes   Ownership
                     Sample   Acquisition                  non-Army       not       Misstatement
Program               Items      Cost       Depreciation     Assets    supported   ($ in millions)
Chinook CH-47D        20                                                           None Detected
Modifications
Chinook               20                                      X                         442.7
CH-47F/MH-47G
Combat Training       13                                                           None Detected
Centers BLI
MA6601
Engineer Mission        9                                                          None Detected
Module
EOD Equipment          7                                                           None Detected
Family of Medium      45          X                                                      4.2
Tactical Vehicles
Family of Stryker     80          X                                                     10.5
Vehicles
Fire Support          18          X                                                    372.8
Vehicle
Modification
GSTAMIDS               7                                                           None Detected
HMMWV (LTV)           16                                                           None Detected
Improved Target       40          X               X                                     32.0
Acquisition System
Javelin                20                         X                       X               0
Longbow Apache        20          X                                                     (13.5)
AH-64D
M113A2                12                                                           None Detected
M88A1 Med Rec         10                                                           None Detected
Vehicle Fleet –
Recap
M88A2 Hercules         20         X               X                                      (2.2)
M9 Armored            20                                                           None Detected
Combat Earth
Mover (CE)
M939 5-Ton Truck      20          X               X                       X              (0.0)
Marine C4I            10                                                           None Detected
Upgrade




                                             24
                    Military Equipment Programs Reviewed (cont’d)
                                                                        Army
                                Unit                       Includes   Ownership
                    Sample   Acquisition                  non-Army       not       Misstatement
Program              Items      Cost       Depreciation     Assets    supported   ($ in millions)
Mod of In-Service    15                                                           None Detected
Equipment
(DA0924)
Paladin              20          X               X                       X             (0.8)
Palletized Load      20          X                                       X             (0.6)
System
PAC - 3              20          X                                       X           (753.0)




                                            25
26
Appendix D. Statistical Sampling
Methodology and Analysis

Quantitative Plan
Objective
To determine whether acquisition valuations were correct and whether control procedures
were correctly followed.

Population
The population consisted of an Excel file containing 216 programs, valued at
$113,893,900,857, and contained 98,699 end item transactions. The 216 programs were
categorized by average cost and group composite method. There were 152 programs
using average cost method that amounted to $78,267,574,941 that contain 98,102 end
item transactions. There were 64 programs using group composite method that amounted
to $35,626,325,916 that contained 597 end items.

Measures
The variable measure was the dollar difference between the stated item value and the
audited value. The attribute measure of correct or incorrect was used to determine if the
item audited met the required conditions.

Parameters
We used a 90 percent confidence level for the statistical estimate.

Sample Plan
We used a two-stage sample design was used. Stage 1 was a probability proportional to
size design by acquisition value. Stage 2 was a simple random sample of program end
items. Programs were sampled separately based on the costing method: average cost and
group composite.

Stage 1 average cost. We selected 40 programs using probability proportional to size
with replacement. There were 24 unique programs selected.

Stage 1 group composite. We selected 20 programs using probability proportional to size
with replacement. There were 15 unique programs selected.

Stage 2 average cost. We randomly selected 20 end items from each of the 40 average
cost programs without replacement. Total sample size was 800.

Stage 2 group composite. We randomly selected 20 end items from each of the 20 group
composite programs without replacement. If there were fewer than 20 end items in a
program 100 percent of the items were selected. Total sample size was 264. We used the
random number generator in SAS version 9.1 to select the random samples.



                                            27
Statistical Analysis and Interpretation
Absolute Dollar Valuation:
Based on the audit results from the sample items provided to QMD analysts by the audit
team, we calculated the following statistical projection:

                  90 % One-Tail              ABSOLUTE DOLLAR
                Confidence Interval             VALUATION

                      Lower                    Point
                      Bound                   Estimate
                  4,218,814,173            7,668,965,863
We are 90 percent confident the absolute dollar valuation error in the population is at
least $4,218,814,173.

Number Valuation and Depreciation Errors:
Based on the audit results from the sample items provided to QMD analysts by the audit
team, we calculated the following statistical projection:


                  90 % One-Tail           NUMBER VALUATION and
                Confidence Interval           DEPR ERRORS

                      Lower                    Point
                      Bound                  Estimate
                      20,310                  40,500

We are 90 percent confident the number of valuation errors in the population is at least
20,310.

Number not Army and Unsupported Errors:
Based on the audit results from the sample items provided to QMD analysts by the audit
team, we calculated the following statistical projection:

                  90 % One-Tail           NUMBER NOT ARMY and
                Confidence Interval       UNSUPPORTED ERRORS

                      Lower                    Point
                      Bound                  Estimate
                       420                    12,959
We are 90 percent confident the number of “Not Army and Unsupported” errors in the
population is at least 420.




                                            28
Department of the Army Comments




                  Click to add JPEG file




                                 29
Click to add JPEG file




               30
Click to add JPEG file




               31
Click to add JPEG file




               32
Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                    Click to add JPEG file




                                   33
Click to add JPEG file




               34
Click to add JPEG file




               35
36
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Jack L. Armstrong
Mark A. Ives
Kathleen A. Furey
Martin J. Radtke
Thomas W. Shurman
Donna J. Paterson
James D. Hartman
Lusk F. Penn
Kandasamy Selvavel
Ann Thompson
